,._J

FILED
MA« 15 2021

m

°^li§^Ty%£L£RK
IN THE
SUPREME COURT OF THE UNITED STATES

HAKIMAH JABBAR - PETITIONER
Vs
JUDGE JAMES L. GRAHAM -RESPONDENT(S)
ON PERTITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
HAKIMAH JABBAR
2339 TAYLOR AYE
COLUMBUS. OHldjhl 1-2358
614-670-0626
HJABBAR4321 l@GMAILCOM

1

1
i

I

QUESTION(S) PRESENTED
1) The U.S Court of Appeals 6th Cir. Affirming of District Court decision directly conflicts
with the Appeals Court’s opinion, In re Adams, 302 B.R.539 (B.A.P 6th Cir.2003)
establishment in the same important matter with enforceable transfers restrictions as
beneficiary of trust. Because the Petitioner is beneficiary of trust within the meaning of
11 U.S.C §541(c) (2) and the Petitioner in same important matter is a beneficiary of trusts
with enforceable transfer restrictions such that he Petitioner beneficial interest in those
trust shall excluded from sentencing pursuant to Title 18a 32 (c)4.
2) The Appeals Court in same important matters pursuant to In re R. WLeet Electric, Inc.,
372 B.R 372 B.R. 846 (B.A.P 6th Cir.2007) “trust funds can be identified in a substitute
form the Petitioner has identified the trusts funds in mingled in substituted form as “the
forfeited property of Deandre Forrest instead from tracking from owner to contractor to
beneficiary was denied erroneously when the District Court of Appeals deny Petitioner
Counsel and affirmed District Court Decision, because it is conflict with it’s own opinion
3) The decision to affirm District Court Judgement is conflict with the District Court of
appeals decisions in same important matter in another Appeals Court Decision (it own
appeal decision) in pursuant to In re R. WLeet Electric, Inc., 372 B.R 372 B.R. 846 (B.A.P
6th Cir.2007) Cestui que trust may follow trust through any change. The Court established
“ trust can be identified in substitutive form, then affirm in same important matter that the
District Court decision that the does not have to obey a simple contract he obliged as
fiduciary of cestui que trust Petitioner is a beneficiary of.

2

4) Were in the same important matter pursuant to In re R. WLeet Electric, Inc., 372 B.R 372
B.R. 846 (B.A.P 6th Cir.2007), “5. the trustee shalll)collect... and close such estate... with the best interest of parties in interest. It is
■i.

•f

' .

well established the Petitioner is party in interest of “ the forfeited property of Deandre
Forrest. Therefor the District Court of Appeals affirmation of District Court decision is
in direct contradiction in same important matter of interest established in decision of
another District Court of Appeals (it’s own actions) because the Appeals court accepted
tender payment, but denied Petitioner Counsel is not inn best interest of Petitioner/ Party
of Interest. ‘

“

-

3

'

, -

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgement is subject of this petition is as
follows:
Judge James L. Graham
85 Marconi Boulevard Rm 169
Columbus, Ohio 43215-2892
61-719-3200

Solicitor’s General of the United States
Department of Justice
Room 5616
950 Pennsylvania Avenue N.W.
Washington, DC 20530-0001
RELATED CASES
•

United States v. Forrest, No. 2:17-cr-158(l), U.S District Court for Southern
District of Ohio Eastern Division. Judgement entered Feb. 10, 2021.

•

Forrest v. United States, No. 2:20-cv-0075, U.S District Court For the
Southern Division of Ohio Eastern Division. Judgment entered Jan. 27, 2020.

•

Jabbor v. Graham, No. l:18-cv-00095. U. S District Court Southern District
of Ohio Eastern Division. Judgement entered Aug. 17, 2018

4

•

Midland Funding v Forrest, No. 19CVF4380. In The Franklin County
Municipal Court Columbus, Ohio. Judgement entered Jun. 24, 2020.

•

Jabbar v. Graham,No. 2:20-cv-948, U.S. District Court Southern District of
Ohio. Judgment entered Mar. 27, 2020.

•

Jabbar v. Graham, No. 2:20-cv-6406. U.S District Court Southern District of
Ohio. Judgement entered Jan. 7, 2021.

•

Jabbar v Graham, No. l:20-cv-245. U.S Distict Court Southern District of
Ohio Western Division. Judgement entered Apr. 28, 2020.
•*

•

- 1 *.';

'

-

- f •

i

Jabbar v. United States Department ofProbation, No. 2:20-cv-6105.' U.S
District Court for the Southern Division of Ohio. Judgement entered Feb. 8,
2021

•

United States Monarchy v. Graham, No. 2021 -0226. Ohio Supreme Court,
Judgement entered Mar. 10,2021.

•

Jabbar v. Graham, No. 20-3483. U.S District Court of Appeals Sixth Circuit,
Judgment entered Dec. 17, 2020

5

TABLE OF CONTENTS
OPINIONS BELOW

7

TABLE OF AUTHORITES

8

JURISDICTION

9

CONSTUTIONAL AND STATUTORY PROVISONS INVOLVED

10

STATEMENT OF CASE

12

REASONS FOR GRANTING THE PETITON

16

CONCLUSION

17

INDEX TO APPENDICES
APPENDIX A

Decision of District Court of Appeals

APPENDIX B

Decision of District Court

APPENDIX C

Report and Recommendation of District Court

APPENDIX D

Preliminary Order of Forfeiture of District Court

APPENDIX E

Final Order of Forfeiture of District Court

APPENDIX H

Entry of Franklin County Municipal Court

APPENDIX I

Declaration of Beneficiary Franklin County Municipal Court

APPENDIX J

District Court of Appeal Docket sheet.

APPENDIX K

Opinion of District Court of Appeals In Re Adams

APPENDIX L

Opinion of District Court of Appeals In Re R. W Leet
6

OPINIONS BELOW
For cases from federal Courts:
The opinion of the United States court of appeals appears at the Appendix A to the
petition and is unpublished.

7

TABLE OF AUTHORITES
Federal Statues

11 U.S Code § 547...
11 U.S.C §541 (c)(4)
Title 18a 32 (c) (4):..

11
14
11

Regulations
UCC 3-603

11

Other Authorities
Federal Rules of Civil Procedure Merge Equity and Common Law

11

Regulations
U.C.C 3-603....
U.C.C 3-603(c).

16
16

8

JURISDICTION
For cases from federal courts:
The date on which the United States Court of Appeals decided my case was December
17,2020. No petition for rehearing was timely filed in my case.

9

CONSTUTIONAL AND STATUTORY PROVISONS INVOLVED
•

Title 18a 32 (c) (4): Ancillary Proceeding Not Part of sentencing. An ancillary
Proceeding is not part of sentencing.

•

11 U.S.C §541(c)(2): A restriction on the transfer of a beneficial interest of a beneficial
interest of the debtor in a trust that is enforceable under applicable nonbankruptcy law is
enforceable in a case under this title.

•

11 U.S Code § 547: APPENDIX M

•

UCC 3-603: (a) If tender of payment of an obligation to pay an instrument is made to
a person entitled to enforce the instrument, the effect of tender is governed by principles
of law applicable to tender of payment under a simple contract.
(b) If tender of payment of an obligation to pay an instrument is made to

10

"

,)i

a person entitled to enforce the instrument and the tender is refused, there is discharge, to
the extent of the amount of the tender, of the obligation of an indorser or
accommodation party having a right of recourse with respect to the obligation to which the
tender relates.
(c) If tender of payment of an amount due on an instrument is made to
a person entitled to enforce the instrument, the obligation of the obligor to pay interest
after the due date on the amount tendered is discharged. If presentment is required with
respect to an instrument and the obligor is able and ready to pay on the due date at every
place of payment stated in the instrument, the obligor is deemed to have made tender of
payment on the due date to the person entitled to enforce the instrument.

•

Federal Rules of Civil Procedure iVlerge Equity and Common Law

September 16, 1938
In 1938, pursuant to its authority under the Rules Enabling Act of 1934, the Supreme Court
enacted uniform rules of procedure for the federal courts. Among the changes wrought by the
rules was the elimination the federal courts' separate jurisdiction over suits in equity (a
centuries-old system of English jurisprudence in which judges based decisions on general
principles of fairness in situations where rigid application of common-law rules would have
brought about injustice). Under the new rules, suits in equity and suits at common law
were grouped together under the term “civil action.”

11

STATEMENT OF CASE
The District Court of Appeals Decision conflicts with opinions made by the Appeals Court and
laws of simple contract.
ARGUMENT IN LAW
1) The District Court of Appeals establishes “one caliming as a cestui que trust
thereunder must identify the trust fund or property in the estate, and if such fund or
property has been mingled with the general property of the debtor, sufficiently trace
the property”( Appendix L, pg856 \2), the Petitioner stated she claims interest in
property subject to forfeiture, not the currency held in title (Appendix C, |2). The
Petitioner Declaration of appearance of cestui que trust (Appendix J) establishes the
property has been mingled with general property of debtor Deandre Forrest. The
Petitioner must “ sufficiently trace the trust property” (Appendix L, pg 85612). The
12

Petitioner has brought proof without reasonable doubt the trust property is in
substitutive form.
The Petitioner’s interest in property (Appendix C f2) is no longer in the title
granted over the currency (Appendix A pg 2 fl), this is in conflict with final order
of forfeiture (Appendix E, pg 2 #1) proves the trust has been identified in
substitutive form. The District Appeals Court title over currency, as well as
tendered a writ is a manifestation of intention to create a fiduciary relationship
with respect to property (Appendix K, pg 540 [a]). The Respondents fiduciary
relationship is of cestui que trust mingled with other property identified in
substitutive form as the “forfeited property of Deandre Forrest” that the Petitioner
is a beneficiary of. The District Court od Appeals Sixth Circuit established “ trust
funds can be identified in substitutive form” (Appehdix L,'pg 858 ^2) .The
District Court of Appeals established Petitioner “ may follow trust... for the trust
property may be claimed as subject to trust (Appendix L, Conclusion #4, #5,and
#6). The Petitioner has shown she has identified the trust in substitutive form and
the Courts of appeals decision is in conflict with decision in the same important
matter of sufficiently tracing a trust.
2) The Sixth Circuit District Court opinion establishes beneficiaries of trusts should
carry proof that they are beneficiaries of a trust in the meaning of 11 U.S.C §541
(c)(4) (Appendix K, Opinion). The Petitioner has beneficial interest was transferred in
ancillary proceeding (Appendix D) and is enforceable under applicable
nonbankruptcy law enforceable in a case under Property of the Estate. Therefore, the
Court’s decision conflicts with another U.S District Court of Appeals on same

13

; r\ •

important matter. Beneficiaries of trust with enforceable transfer restrictions such that
their beneficial interest in those trust are excluded from bankruptcy estate. Thus, in
pursuant to Title 18a 32 (c)(4), the Courts of appeal erroneously contradicts other
decisions of Appeal Court’s in the same important matter of Cestui que trust.
•

“The Debtor, therefore, must show that the property of a trust in which they
are beneficiary”(Appendix K, pg 540 ^1). The Petitioner has shown she is
beneficiary of trust in question. Franklin County Municipal Court Columbus,
Ohio in same important matter of Deandre Forrest, the court docketed an entry
“document is an appearance and the party who'filed is entitled to A
notice...’’(Appendix H). The appearance of document (Appendix I) affirms
the forfeited property of Deandre Forrest is a trust the Petitioner is a
beneficiary of.

•

The Preliminary Order of Forfeiture (Appendix D) and Final Order of
Forfeiture is under the definition established by the District Court of Appeals,
$

“ an explicit declaration of trust, or circumstances which show beyond
reasonable doubt that a trust was intended to be created, accompanied with an
intention to create a trust, followed by an actual conveyance.. .of definite
property .. vesting the legal title presently in a person capable of holding it, to
hold as trustee for the benefit of a cestui que trust” ( Appendix K, pg 540 f3).
The trust was intended to be created by merger of equity and.common law
pursuant to Rules Enabling Act of 1934. Accompanied with Fed. R. of P. Rule
2 is an intention of creation of trust, followed by an actual conveyance
(Appendix D, pg 3 #3) and definite property vesting title in the United States

14

(Appendix E, pg 2 #1) for benefit of cestui que trust (Appendix E, pg 1 f3). “
“The forfeiture of property of Deandre Forrest” is without reasonable doubt
a “declaration of trust”. The Appeals Court decision to affirm District Court
judgment is erroneous because is in direct contradiction to in the same
important matters of trust another Court of appeals established.
•

The District Court established (Appendix K, pg 50)
[a] Fiduciary relationship with respect to property, arising from a
manifestation of intention to create that relationship and subjecting
the person who holds title to the property to duties to deal with it
for the benefit of charity or for one or more persons, a least one of
who, is not the sole trustee.
Appendix J, Docket #8, the Respondents tender payment in pursuant to

U.C.C 3-603, “effect of tender is governed by the principles applicable to tender
payments under a simple contract” “this is a fiduciary relationship with respect to
property, subjecting who hold title with duties that deal with...”. The Appeals
Court was subject to hold title pursuant to U.C.C 3-603(c) because the court is
entitled to enforce the instrument when tender payment was made (Appendix J,
Docket #8).

15

REASONS FOR GRANTING THE PETITON
The compelling evidence presented in the body of this document show the respondent has
been acting as fiduciary of a cestui que trust. However, the District Court of Appeals affirm the
respondent decision to not convey beneficial interest to the beneficiary of the trust he is fiduciary
of. The Supreme Court should get involved because the District Court of Appeals is in conflict
with decisions in the same important matter that conflicts with decision from another Appeals
court on several occasions In the body of this document. The is situation will affect any litigator
who protecting their rights as beneficiary of trust. This situation will err the courts and the
beneficial interest of beneficiary will not be protected by rules of a simple contract and fiduciary
to dissolve trust because he kept beneficial interest of trust and not serve the beneficial interest of
the cestui que trust other persons other than trustee.

16

V

Ml'

CONCLUSION

The Petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:
17

